 OFFICE OF INSPECTOR GENERAL
                     Audit Report

    Inspection of the Railroad Retirement Board’s
Financial Interchange System Continuous Monitoring



        This abstract summarizes the results of the subject audit. The
        full report includes information protected from disclosure and
        has been designated for limited distribution pursuant to
        5 U.S.C. § 552




                      Report No. 12-08
                     September 21, 2012




   RAILROAD RETIREMENT BOARD
                               REPORT ABSTRACT
   Inspection of the Railroad Retirement Board’s Financial Interchange System
                              Continuous Monitoring

The Office of Inspector General (OIG) for the Railroad Retirement Board (RRB)
conducted an inspection of the activities at the RRB for the continuous monitoring of the
Financial Interchange (FI) system to determine adherence with existing policy,
procedures, guidance, and standards. Because the FI system inherits many of its
controls from the Agency Enterprise General Information Support System (AEGIS) this
inspection also includes an evaluation of the continuous monitoring documentation
prepared for the AEGIS system. This inspection will support the OIG’s mandated fiscal
year (FY) 2012 Federal Information Security Management Act of 2002 evaluation.

The objective of continuous monitoring is to determine if the complete set of planned,
required, and deployed security controls within an information system or inherited by the
system continue to be effective over time. Continuous monitoring is an important
activity in assessing the security impact on an information system resulting from
planned and unplanned changes to the hardware, software, firmware, or environment of
operation. In FY 2011, a contractor was hired by the RRB to plan and perform
continuous monitoring of the controls over the RRB’s FI and AEGIS systems.

Our evaluation determined that activities conducted at the RRB for the continuous
monitoring process of the FI and AEGIS systems do not fully comply with existing
policy, procedures, guidance, and standards because evidence suggests that an
ineffective review process was performed over contractor deliverables. Therefore, we
will continue to cite the agency with a significant deficiency in the internal control
structure over the review of contractor deliverables associated with the risk
management framework. We made eleven detailed recommendations to RRB
management related to:

   •   improving the controls over the review process for the continuous monitoring
       deliverables received from the contractor and approved by the RRB;
   •   allocating the necessary resources to allow for an effective review of the
       continuous monitoring documentation; and
   •   effectively managing and consistently updating the FI and agency-wide Plan of
       Action and Milestones.

Agency Management has agreed to take corrective actions for all recommendations.




                                            1
